                                                             O FFICE OF A UDIT S ERVICES , R EGION VI
                                                                1100 C OMMERCE S TREET , R OOM 632
                                                                                  D ALLAS , TX 75242
August 1, 2012



Report Number: A-06-11-00036

Ms. Kimberly Chalk
Regional Program Manager, Region VI
Office of Head Start
Administration for Children and Families
U.S. Department of Health and Human Services
1301 Young Street, Suite 937 West
Dallas, TX 75202

Dear Ms. Chalk:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled William Smith, Sr., Tri-County Child Development Council,
Inc.’s, Financial Management Practices and Systems Did Not Always Meet Federal
Requirements. We will forward a copy of this report to the HHS action official noted on the
following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.
Page 2 – Ms. Kimberly Chalk

If you have any questions or comments about this report, please do not hesitate to call me at
(214) 767-8414 or contact Sylvie Witten, Audit Manager, at (512) 339-3071 or through email at
Sylvie.Witten@oig.hhs.gov. Please refer to report number A-06-11-00036 in all
correspondence.

                                           Sincerely,



                                           /Patricia Wheeler/
                                           Regional Inspector General
                                             for Audit Services

Enclosure

Direct Reply to HHS Action Official:

Ms. Kimberly Chalk
Regional Program Manager, Region VI
Office of Head Start
Administration for Children and Families
U.S. Department of Health and Human Services
1301 Young Street, Suite 937 West
Dallas, TX 75202


cc:
Ms. Ann Linehan
Deputy Director
Office of Head Start
Portals Building, Suite 8000
1250 Maryland Avenue, SW
Washington, DC 20024

Ms. Yolanda Wise
Head Start Program Specialist
Office of Head Start
Portals Building, Suite 8000
1250 Maryland Avenue, SW
Washington, DC 20024
Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL


    WILLIAM SMITH, SR.,
     TRI-COUNTY CHILD
DEVELOPMENT COUNCIL, INC.’S,
  FINANCIAL MANAGEMENT
 PRACTICES AND SYSTEMS DID
 NOT ALWAYS MEET FEDERAL
      REQUIREMENTS

  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                  Patricia M. Wheeler
                                               Regional Inspector General

                                                       August 2012
                                                      A-06-11-00036
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Title VI of the Omnibus Budget Reconciliation Act of 1981 established Head Start as a Federal
discretionary grant program. The major objectives of the Head Start program are to promote
school readiness and to enhance the social and cognitive development of low-income children by
providing educational, health, nutritional, and social services.

Within the U.S. Department of Health and Human Services, the Administration for Children and
Families, Office of Head Start (OHS), administers the Head Start program. In fiscal year (FY)
2010, Congress appropriated $7.2 billion to fund Head Start’s regular operations.

The American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5,
provided an additional $2.1 billion for the Head Start program during FYs 2009 and 2010. These
funds were intended for activities such as expanding enrollment, funding cost-of-living wage
increases for employees of Head Start grantees, upgrading centers and classrooms, and bolstering
training and technical assistance.

William Smith, Sr., Tri-County Child Development Council, Inc. (the Council), a nonprofit
agency, operates Head Start and Early Head Start programs that serve approximately 975
children from birth to age 5 and their families at various locations in Matagorda, Fort Bend, and
Wharton counties in Texas. The Council is funded primarily through Federal Head Start grants.
For program year March 1, 2010, through February 28, 2011, OHS awarded approximately $9.3
million in Federal Head Start funds to the Council. From October 2009 through September
2010, the Council received approximately $3.7 million in Recovery Act funding. The Council
also received funds from the U.S. Department of Agriculture.

OBJECTIVE

Our objective was to determine whether the Council’s financial management practices and
systems met Federal requirements.

SUMMARY OF FINDINGS

The Council’s financial management practices and systems did not always meet Federal
requirements. Specifically, the Council:

       claimed $27,000 in unsupported consultant services costs;

       misclassified Recovery Act, nontravel, and administrative costs in its accounting system;

       did not have adequate physical controls and did not adequately segregate duties in its
       accounting department;

       did not adequately segregate its procurement duties; and

                                                i
       claimed $31,613 in unallowable in-kind non-Federal share because it overstated
       volunteer services.

RECOMMENDATIONS

We recommend that OHS:

       require the Council to refund $27,000 in unallowable costs for consultant services to the
       Federal Government and ensure that the Council maintains adequate records to support
       consultant services,

       ensure that the Council develops procedures to ensure that costs are classified correctly in
       the accounting system,

       ensure that the Council requires employees with access to the accounting software to
       have their own login names and passwords and segregates accounting duties in its
       accounting department,

       ensure that the Council develops and implements procedures for maintaining segregation
       of duties for its procurement of goods, and

       ensure that the Council claims volunteer hours for non-Federal share that are accurately
       counted.

COUNCIL COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the Council concurred with four of our five findings.
Although the Council agreed that it did not keep proper documentation on the work performed
by the consultant, it disagreed with repaying the $27,000, stating that the consultant performed
the work. In addition, the Council described the corrective actions it planned to take to address
both the findings with which it concurred and the finding with which it disagreed. The Council’s
comments are included in their entirety as Appendix A. Nothing in the Council’s comments
caused us to change our findings or recommendations.

OFFICE OF HEAD START COMMENTS

In its written comments on our draft report, OHS concurred with our recommendations. OHS
also noted that actions the Council described did not address certain aspects of the Council’s
accounting and procurement systems related to segregation of duties. OHS’s comments are
included in their entirety as Appendix B.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                             Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1
              Head Start Program ......................................................................................1
              William Smith, Sr., Tri-County Child Development Council, Inc ..............1
              Federal Requirements ..................................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................1
               Objective ......................................................................................................1
               Scope ............................................................................................................2
               Methodology ................................................................................................2

FINDINGS AND RECOMMENDATIONS ....................................................................3

          INADEQUATE DOCUMENTATION FOR CONSULTANT SERVICES ...........3

          COST MISCLASSIFICATIONS ............................................................................3

          INADEQUATE INTERNAL CONTROLS OVER THE ACCOUNTING
           DEPARTMENT.....................................................................................................4

          LACK OF PROCUREMENT PROCEDURES .......................................................4

          IN-KIND VOLUNTEER SERVICES ....................................................................5

          RECOMMENDATIONS .........................................................................................5

          COUNCIL COMMENTS AND OFFICE OF INSPECTOR GENERAL
           RESPONSE...........................................................................................................5

          OFFICE OF HEAD START COMMENTS ....................................................................... 6

APPENDIXES

          A: COUNCIL COMMENTS

          B: OFFICE OF HEAD START COMMENTS




                                                                    iii
                                       INTRODUCTION

BACKGROUND

Head Start Program

Title VI of the Omnibus Budget Reconciliation Act of 1981 established Head Start as a Federal
discretionary grant program. The major objectives of the Head Start program are to promote
school readiness and to enhance the social and cognitive development of low-income children by
providing educational, health, nutritional, and social services.

Within the U.S. Department of Health and Human Services (HHS), the Administration for
Children and Families, Office of Head Start (OHS), administers the Head Start program. In
fiscal year (FY) 2010, Congress appropriated $7.2 billion to fund Head Start’s regular
operations.

The American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5,
provided an additional $2.1 billion for the Head Start program during FYs 2009 and 2010. These
funds were intended for activities such as expanding enrollment, funding cost-of-living increases
for employees of Head Start grantees, upgrading centers and classrooms, and bolstering training
and technical assistance.

William Smith, Sr., Tri-County Child Development Council, Inc.

William Smith, Sr., Tri-County Child Development Council, Inc. (the Council), a nonprofit
agency, operates Head Start and Early Head Start programs that serve approximately 975
children from birth to age 5 and their families at various locations in Matagorda, Fort Bend, and
Wharton counties in Texas. The Council is funded primarily through Federal Head Start grants.
For program year March 1, 2010, through February 28, 2011, OHS awarded approximately $9.3
million in Federal Head Start funds to the Council. From October 2009 through September
2010, the Council received approximately $3.7 million in Recovery Act funding. The Council
also received funds from the U.S. Department of Agriculture.

Federal Requirements

Federal regulations (45 CFR part 74) establish uniform administrative requirements governing
HHS agreements and HHS grants awarded to nonprofit organizations. Head Start regulations at
45 CFR parts 1301 and 1304 establish program administration, grants management, and program
performance requirements for all Head Start grants.

OBJECTIVE, SCOPE, AND METHODOLOGY
Objective

Our objective was to determine whether the Council’s financial management practices and
systems met Federal requirements.


                                                1
Scope

We performed this review based on a request from OHS. We did not perform an overall
assessment of the Council’s internal control structure. We reviewed only those internal controls
directly related to our audit objective. Our review period was the Council’s FY 2010 and its
Recovery Act funding period from October 2009 through September 2010.

We performed our fieldwork at the Council’s administrative office in Richmond, Texas.

Methodology

To accomplish our objective, we:

         reviewed relevant Federal laws, regulations, and guidance;

         reviewed the Council’s procedures related to accounting documentation, procurement,
         and preparation of financial reports and interviewed Council officials to gain an
         understanding of those procedures;

         reviewed grant award documentation to determine the Council’s Head Start and
         Recovery Act funding;

         reviewed Head Start’s triennial review of the Council, issued April 25, 2010, and the
         followup review issued February 11, 2011;

         reviewed the Council’s transaction listing,1 timesheets, invoices, bank reconciliations,
         and other supporting documentation for the audit period;

         reviewed 20 payments (totaling $199,971) judgmentally selected from the transaction
         listing for the audit period;

         reviewed the Council’s volunteer activity forms for the FY ended February 28, 2011;

         reviewed lease agreements, operating agreements, memorandums of understanding,
         appraisals, monthly volunteer hour summary schedules, volunteer service timesheets, and
         other supporting documentation for the non-Federal share amounts; and

         reviewed the composition of the Council’s board of directors and the board meeting
         minutes.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions

1
  The transaction listing report showed all of the Council’s transactions for its Head Start operating account during
the audit period.

                                                           2
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The Council’s financial management practices and systems did not always meet Federal
requirements. Specifically, the Council:

       claimed $27,000 in unsupported consultant services costs;

       misclassified Recovery Act, nontravel, and administrative costs in its accounting system;

       did not have adequate physical controls and did not adequately segregate duties in its
       accounting department;

       did not adequately segregate its procurement duties; and

       claimed $31,613 in unallowable in-kind non-Federal share because it overstated
       volunteer services.

INADEQUATE DOCUMENTATION FOR CONSULTANT SERVICES

Pursuant to 45 CFR § 74.21(b)(7), financial management systems must provide accounting
records that are supported by source documentation.

The Council claimed $27,000 in unsupported consultant services. The Council contracted with a
consultant to provide management and program design services. We requested documentation to
support the consultant costs claimed, but the Council was unable to provide a contract for the
services to be rendered or support for the actual services provided. According to the Council, the
consultant reimbursed the $27,000 payment. However, the Council did not provide adequate
documentation to support the $27,000 reimbursement and did not account for the reimbursement
in its accounting system.

COST MISCLASSIFICATIONS

Pursuant to 45 CFR § 74.21(b)(1), financial management systems must provide for accurate,
current, and complete disclosure of the financial results of each HHS-sponsored project or
program.

The Council misclassified Recovery Act, nontravel, and administrative costs in its accounting
system. Specifically,

       The Council posted an $11,100 payment to a non-Recovery Act Head Start account for
       an accounting consultant that performed Recovery Act work.




                                                3
       The Council posted a credit card payment totaling $3,357 to its local travel account.
       However, the invoice included at least $1,108 in charges for nontravel items, including
       Internet service, cable television, electronics, software, and a magazine subscription.

       The Council posted consultant payments totaling $66,649 to the Head Start salaries
       account as program costs. The Council should have charged these payments to an
       administrative costs account because the contract stated that the work was for its human
       resources department.

As a result of these misclassifications, the Council could not guarantee the accuracy of its
financial data.

INADEQUATE INTERNAL CONTROLS OVER THE ACCOUNTING DEPARTMENT

Pursuant to 45 CFR § 74.21(b)(3), financial management systems must provide for effective
control over and accountability for all funds, property, and other assets. Head Start grantees are
specifically required to establish and implement internal controls to safeguard Federal funds (45
CFR §§ 1304.50(g)(2) and 1301.13(a)).

The Council lacked adequate internal controls over its accounting department, including physical
controls and segregation of duties.

The chief financial officer (CFO) and the fiscal officer used the same login name and password
to access the accounting software and had unlimited access to all of the accounting modules,
including accounts payable, accounts receivable, payroll, and general ledger. The Council
should have required each user to have his or her own login name and password to ensure proper
physical controls.

The CFO had check-writing privileges, unlimited access to the accounting system, and
responsibility for monthly bank reconciliations. He also opened and logged the Council’s
incoming mail. Allowing the same individual to perform all of these functions increases the
opportunity for that individual to divert assets. For internal controls over the accounting
department to be effective, these duties should be segregated among different individuals.

LACK OF PROCUREMENT PROCEDURES

Pursuant to 45 CFR § 74.21(b)(3), financial management systems must provide for effective
control over and accountability for all funds, property, and other assets. Head Start grantees are
specifically required to establish and implement internal controls to safeguard Federal funds (45
CFR §§ 1304.50(g)(2) and 1301.13(a)).

The Council did not have procedures to ensure segregation of duties related to procuring goods.
Individual warehouse employees could place orders, receive orders, and adjust inventory records.
For internal controls over the procurement of goods to be effective, these duties should be
segregated among different individuals. Allowing the same individual to perform all functions
increases the opportunity for that individual to divert funds or goods.


                                                 4
IN-KIND VOLUNTEER SERVICES

Pursuant to 45 CFR § 1301.20, grantees generally are to provide 20 percent of the total cost of
the program through non-Federal share. Pursuant to 45 CFR § 74.23(a), to be acceptable,
matching contributions must be necessary and reasonable for proper and efficient
accomplishment of program objectives and be verifiable from the recipient’s records.

The Council was required to provide $2,339,316 in non-Federal share for its 2010 FY. The
Council included $31,613 in unallowable in-kind contributions because it overstated volunteer
service hours for its Bay City facility. The Council claimed 4,227 volunteer hours for this
facility on its February 2011 Volunteer Hours summary schedule. However, only 2,091
volunteer service hours were recorded on the February 2011 “IN-KIND VOLUNTEER TIME
SHEET” forms for Bay City. We are not recommending repayment because the Council
documented in-kind contributions in excess of its required match.

RECOMMENDATIONS

We recommend that OHS:

       require the Council to refund $27,000 in unallowable costs for consultant services to the
       Federal Government and ensure that the Council maintains adequate records to support
       consultant services,

       ensure that the Council develops procedures to ensure that costs are classified correctly in
       the accounting system,

       ensure that the Council requires employees with access to the accounting software to
       have their own login names and passwords and segregates accounting duties in its
       accounting department,

       ensure that the Council develops and implements procedures for maintaining segregation
       of duties for its procurement of goods, and

       ensure that the Council claims volunteer hours for non-Federal share that are accurately
       counted.

COUNCIL COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the Council concurred with four of our five findings.
Although the Council agreed that it did not keep proper documentation on the work performed
by the consultant, it disagreed with repaying the $27,000, stating that the consultant performed
the work. In addition, the Council described the corrective actions it planned to take to address
both the findings with which it concurred and the finding with which it disagreed. The Council’s
comments are included in their entirety as Appendix A.




                                                5
The Council was unable to provide a contract for the services to be rendered or support for the
actual services provided. In addition, the Council did not provide adequate documentation to
support the $27,000 reimbursement and did not account for the reimbursement in its accounting
system. Therefore, we did not change our finding or our recommendation.

OFFICE OF HEAD START COMMENTS

In its written comments on our draft report, OHS concurred with our recommendations. OHS
also noted that actions the Council described did not address certain aspects of the Council’s
accounting and procurement systems related to segregation of duties. OHS’s comments are
included in their entirety as Appendix B.




                                                6
APPENDIXES
                               Page 1 of 3


APPENDIX A: COUNCIL COMMENTS
Page 2 of 3
Page 3 of 3
                                            Page 1 of 2

APPENDIX B: OFFICE OF HEAD START COMMENTS
Page 2 of 2
